HHS/OIG-Audit--"Review of the National Institutes of Health's Controls Over Advisory Committees' Potential Conflicts-of-Interest, (A-15-93-00020)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the National Institutes of Health's Controls Over Advisory
Committees' Potential Conflicts-of-Interest," (A-15-93-00020)
March 23, 1994
Complete Text of Report is available in PDF format
(1.29 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report addresses weaknesses in control procedures designed to detect
and prevent actual and perceived conflicts-of-interest involving the National
Institutes of Health's (NIH) 235 advisory committees. Advisory committees consist
of outside experts and professional peers who provide advice about biomedical
research direction and how research monies should be spent. We found that NIH's
procedures were not sufficient to detect conflicts-of-interest in its advisory
committees that provide advice and direction to the directors of NIH Institutes,
Centers and Divisions. We recommend that NIH implement corrective actions to
improve the internal controls over conflicts-of-interest.